               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03420-85


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

         VA Salt Lake City 

        Health Care System 

        Salt Lake City, Utah 





February 28, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                            Glossary
                       ADA        Americans with Disabilities Act
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NIAAA      National Institute on Alcohol Abuse and
                                  Alcoholism
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i



Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          2


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of November 18, 2013, at the
following CBOCs, which are under the oversight of the VA Salt Lake City Health Care
System and Veterans Integrated Service Network 19:

   Orem CBOC, Orem, Utah

   Roosevelt CBOC, Roosevelt, Utah

   St. George CBOC, St. George, Utah

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                  However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

     	 The main entrance door is Americans with Disabilities Act accessible at the
        Roosevelt CBOC.

     	 Gowned women veterans have access to gender-specific restrooms at the
        Roosevelt CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

     	 Staff consistently complete diagnostic assessments for patients with a positive
        alcohol screen.

     	 Staff provide education and counseling for patients with positive alcohol screen
        and drinking alcohol above National Institute on Alcohol Abuse and Alcoholism
        limits.

     	 Staff consistently document the offer of further treatment to patients diagnosed
        with alcohol dependence.

     	 Registered Nurse Care Managers receive motivational interviewing training
        within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

     	 Complete and document medication reconciliation at each episode of care where
        the newly prescribed fluoroquinolone was administered, prescribed, or modified.



VA OIG Office of Healthcare Inspections                                                         i
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–20, for the full text of the Directors’ comments.) We consider
Recommendation 2 closed. We will follow up on planned actions for the open
recommendations until they are completed.

 




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                              Objectives and Scope 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

   	   Determine whether the CBOCs are compliant with EOC requirements.

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

   	   EOC

   	   AUD

   	   MM

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.




VA OIG Office of Healthcare Inspections                                                         1
                     CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.

Table 1. CBOC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




a
 Includes 93 CBOCs in operation before March 31, 2013. 

b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active 

alcohol use disorders. Scores range from 0-12.



VA OIG Office of Healthcare Inspections                                                                            2
                           CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Orem, Roosevelt,
and St. George CBOCs. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
 X     The CBOC is ADA accessible.                       The main entrance door at the Roosevelt CBOC
                                                         was not ADA accessible. CBOC staff had to
                                                         open the door for patients in wheelchairs
                                                         because the automatic door opener hardware
                                                         was too high for patients to operate.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.




VA OIG Office of Healthcare Inspections                                                                  3
                           CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


NM              Areas Reviewed (continued)                                  Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens
       during transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              Gowned women veterans at the Roosevelt
       veterans in the examination room.                  CBOC cannot access a gender-specific
                                                          restroom without entering public areas.
       The IT network room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automatic external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       JC standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that the main entrance door access is ADA accessible at the Roosevelt
CBOC.

2. We recommended that gowned women veterans have access to gender-specific restrooms
without entering public areas at the Roosevelt CBOC.


VA OIG Office of Healthcare Inspections                                                                  4
                           CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 7 (18 percent) of 40 patients who had
                                                          positive alcohol use screens.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 5 of 21 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       NIAAA guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for five of eight patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that seven of seven RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                           CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


4. We recommended that CBOC/PCC staff provide education and counseling for patients with
positive alcohol screen and drinking alcohol above NIAAA limits.

5. We recommended that CBOC/PCC staff consistently document the offer of further
treatment to patients diagnosed with alcohol dependence.

6. We recommended that CBOC/PCC RN Care Managers receive MI training within
12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                  6
                            CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.
Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 14 (42 percent) of 33 patients
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

7. We recommended that CBOC/PCC staff document that medication reconciliation was
completed at each episode of care where the newly prescribed fluoroquinolone was
administered, prescribed, or modified.




VA OIG Office of Healthcare Inspections                                                                      7
                           CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic; NM denotes criterion “not met.” The facility generally met
requirements. We made no recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                  8
                                                               CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                                                                   Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                 Encountersd

                               Station                    CBOC
          Location     State               Localitye                   MHg        PCh       Otheri      All      MHg       PCh       Otheri        All
                                  #                        Sizef
    West Valley City    UT     660GJ        Urban          Large        688      6,324      5,659      7,817     2,002    12,460    28,871       43,333
    Pocatello           ID     660GA        Urban          Large        951      4,725      3,514      5,090     4,746    10,149    15,202       30,097
    Ogden               UT     660GB        Urban          Large       1,103     4,604      3,938      5,080     5,160    10,990    11,416       27,566
    Orem                UT     660GE        Urban        Mid-Size       672      2,639      2,892      3,407     4,091     5,113     9,446       18,650
    St. George          UT     660GG        Urban        Mid-Size       487      2,660      2,667      3,064     1,834     6,108    11,462       19,404
    Roosevelt           UT     660GD     Highly Rural      Small        68        756        354        765       239      2,394      572        3,205
    Ely                 NV     660GC     Highly Rural      Small         0        255           1       256        0       1,118       1         1,119
 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                   9
                    CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                 Specialty Care                                                Tele-Health
            CBOC                                              Ancillary Servicesl
                                   Servicesk                                                    Servicesm
    Western Salt Lake                  ---                    Diabetes Care                 Tele Primary Care
                                                         Diabetic Retinal Screening
                                                                 Laboratory
                                                             MOVE! Programn
                                                                  Nutrition
                                                                 Pharmacy
    Pocatello                    Specialty               Diabetic Retinal Screening         Tele Primary Care
                            Musculoskeletal Clinic               Laboratory
                                                             MOVE! Program
                                                                 Pharmacy
    Ogden                              ---                    Diabetes Care                 Tele Primary Care
                                                         Diabetic Retinal Screening
                                                                 Laboratory
                                                             MOVE! Program
    Orem                         Specialty               Diabetic Retinal Screening         Tele Primary Care
                            Musculoskeletal Clinic               Laboratory
                                                                 Pharmacy
    St. George                   Specialty                       Audiology                  Tele Primary Care
                            Musculoskeletal Clinic       Diabetic Retinal Screening
                                                                 Laboratory
                                                             MOVE! Program
                                                                 Pharmacy
    Roosevelt                          ---                       Laboratory                 Tele Primary Care

    Ely                                ---                            ---                           ---



 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         10
                                                                                     CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                                                                                         Appendix B


                                                                               PACT Compass Metrics
                                                        FY 2013 Average 3rd Next Available in PC Clinics
                                  80.0
                                  70.0
    Average  Number of Days




                                  60.0
                                  50.0
                                  40.0
                                  30.0
                                  20.0
                                  10.0
                                   0.0
                                                       Salt Lake  City   Pocatello      Ogden                    Roosevelt     Orem       St. George   Western Salt
                                          VHA  Total                                               Ely (660GC)
                                                        HCS  (660)       (660GA)       (660GB)                    (660GD)     (660GE)      (660GG)     Lake  (660GJ)
                              OCT FY13      14.6            23.9           18.8          6.0           0.0          3.8         25.5         17.0          22.4
                              NOV  FY13     15.2            31.6           24.5          8.4           0.0          4.4         26.3         15.0          25.8
                              DEC FY13      13.8            36.7           17.8          10.5          0.0          6.0         28.3         16.4          27.0
                              JAN  FY13     14.0            40.7           23.3          13.8          0.0          5.0         25.6         15.5          26.7
                              FEB FY13      14.8            41.2           21.1          14.1          0.0          1.7         28.2         11.8          35.5
                              MAR FY13      13.3            47.9           21.3          18.2          0.0          7.6         30.5         10.7          34.0
                              APR FY13      14.4            52.4           17.5          20.7          0.0          1.5         71.2         9.2           37.4
                              MAY  FY13     16.0            48.7           18.2          22.2          0.0          4.1         32.7         19.9          25.1
                              JUN FY13      14.2            45.5           20.1          18.7          0.0          3.0         28.7         20.8          35.9
                              JUL FY13      14.6            46.4           23.9          32.5          0.0          1.3         13.2         23.7          31.9
                              AUG  FY13     15.7            45.3           22.9          19.8          0.0          4.0         5.6          22.6          52.4
                              SEP FY13      13.4            23.8           20.7          21.0          0.0          9.8         4.4          16.9          28.3


 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                                            11
                                                                                   CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                                           FY 2013 Established PC Prospective Wait Times 7 Days
                                               100%

            Percentage of Patients Scheduled
              Within 7 Days of Desired Date    80%



                                               60%



                                               40%



                                               20%



                                                0%
                                                      OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13 AUG FY13 SEP FY13
     VHA Total                                         83.5%    81.1%    82.4%    82.6%    83.2%    83.6%    84.0%    84.0%    84.1%      84.3%    84.5%    84.7%
     Salt Lake City HCS (660)                          66.8%    59.7%    50.3%    53.9%    53.2%    59.1%    58.1%    60.4%    59.2%      59.5%    64.1%    64.9%
     Pocatello (660GA)                                 81.8%    72.8%    74.3%    76.8%    75.7%    78.2%    81.2%    81.7%    81.5%      75.2%    73.6%    76.3%
     Ogden (660GB)                                     87.7%    80.8%    81.0%    80.1%    83.9%    86.4%    86.5%    83.4%    84.7%      85.8%    85.3%    83.5%
     Ely (660GC)                                      100.0%   100.0%
     Roosevelt (660GD)                                 90.6%    93.6%    95.1%    98.6%    95.9%    93.9%    97.4%    96.7%    91.5%      96.4%   100.0%    97.5%
     Orem (660GE)                                      97.3%    82.1%    81.0%    62.0%    59.8%    58.3%    62.6%    58.5%    57.2%      64.1%    82.1%    91.2%
     St. George (660GG)                                94.5%    93.9%    91.6%    96.8%    89.2%    89.2%    92.6%    65.9%    59.5%      55.2%    68.0%    74.4%
     Western Salt Lake (660GJ)                         80.1%    64.5%    65.3%    60.5%    59.7%    59.3%    63.9%    65.6%    66.1%      62.5%    62.5%    60.9%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                               12
                                                                                                        CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                                                                FY 2013 Ratio of ER Encounters While on Panel to
                                                                                 PC Encounters While on Panel (FEE ER Included)


                      Percentage of ER Encounters to PC Encounters
                                                                     38%
                                                                     36%
                                                                     34%
                                                                     32%
                                                                     30%
                                                                     28%
                                                                     26%
                                                                     24%
                                                                     22%
                                                                     20%
                                                                     18%
                                                                     16%
                                                                     14%
                                                                     12%
                                                                     10%
                                                                      8%
                                                                      6%
                                                                      4%
                                                                      2%
                                                                      0%
                                                                           OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13   AUG FY13   SEP FY13
        VHA Total                                                           16.3%    16.3%    16.4%      16.3%      16.3%    16.3%    16.1%    16.1%     16.0%     15.9%      15.8%      15.7%
        Salt Lake City HCS (660)                                            30.9%    30.9%    31.5%      31.9%      31.5%    31.8%    31.8%    32.0%     31.8%     31.8%      32.0%      31.7%
        Pocatello (660GA)                                                   12.3%    12.6%    12.9%      12.7%      12.6%    12.6%    12.3%    11.8%     11.4%     11.5%      10.6%      10.2%
        Ogden (660GB)                                                       20.3%    20.2%    20.3%      20.1%      20.1%    19.7%    19.5%    19.8%     20.0%     19.6%      20.0%      19.8%
        Ely (660GC)                                                         12.2%    13.9%    11.0%      12.0%      11.5%    11.0%    11.5%    11.7%     9.1%      9.4%        9.0%      8.6%
        Roosevelt (660GD)                                                   4.9%      4.9%     5.5%      5.7%       5.7%     5.2%      5.2%     5.0%     5.0%      5.0%        5.2%      5.3%
        Orem (660GE)                                                        27.1%    27.6%    27.2%      26.9%      26.7%    26.7%    27.1%    26.8%     27.2%     26.9%      26.7%      24.9%
        St. George (660GG)                                                  13.7%    14.4%    14.7%      15.0%      15.4%    15.6%    14.2%    13.3%     12.7%     12.5%      11.6%      10.7%
        Western Salt Lake (660GJ)                                           36.2%    35.7%    35.6%      35.5%      35.0%    34.9%    34.8%    34.4%     34.6%     33.7%      33.3%      33.0%



 Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
 VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                                                            13
                                                                CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT



                                         FY 2013 2‐Day Contact Post Discharge Ratio
      100%
        90%
        80%
        70%
        60%
        50%
        40%
        30%
        20%
        10%
         0%
                               Salt Lake City   Pocatello                                   Roosevelt                     St. George    Western Salt
                 VHA Total                                  Ogden (660GB)    Ely (660GC)                 Orem (660GE)
                                HCS (660)       (660GA)                                      (660GD)                       (660GG)      Lake (660GJ)
     OCT FY13      52.8%           48.6%         48.6%          61.4%          25.0%          0.0%           50.0%          28.0%          66.0%
     NOV FY13      52.9%           50.4%         70.0%          35.7%          25.0%          0.0%           52.4%          27.3%          70.0%
     DEC FY13      51.5%           54.8%         51.4%          51.3%           0.0%          0.0%           47.6%          40.0%          63.5%
     JAN FY13      57.2%           41.7%         61.1%          31.1%          20.0%          33.3%          35.5%          31.8%          52.6%
     FEB FY13      60.4%           50.4%         43.8%          35.1%           0.0%          20.0%          51.4%          36.8%          62.3%
     MAR FY13      64.4%           44.0%         58.6%          31.4%          20.0%          40.0%          44.4%          50.0%          39.4%
     APR FY13      65.5%           35.8%         52.2%          50.0%           0.0%          66.7%          47.8%          44.4%          54.1%
     MAY FY13      66.1%           59.5%         56.3%          41.5%          16.7%          0.0%           40.0%          33.3%          60.7%
     JUN FY13      70.1%           61.0%         57.9%          37.8%           0.0%          50.0%          26.7%          46.7%          63.3%
     JUL FY13      71.1%           50.7%         50.0%          32.5%           0.0%          66.7%          30.0%          21.4%          67.6%
     AUG FY13      72.7%           54.8%         62.5%          43.9%          66.7%         100.0%          35.3%          40.0%          63.0%
     SEP FY13      68.9%           57.2%         53.8%          48.6%           0.0%          50.0%          40.0%          20.0%          42.4%




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: the total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                   CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                       Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                    Memorandum


           Date:       January 24, 2014

          From:        Director, Rocky Mountain Network (10N19)

       Subject: 	      CBOC and PCC Reviews of the VA Salt Lake City Health
                       Care System, Salt Lake City, UT

             To: 	     Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



            1. Thank you for the opportunity to respond to the proposed
               recommendations for the VA Salt Lake City Health Care System,
               Salt Lake City, Utah.
            2. Attached please find the facility concurrences and responses to
               each of the findings from the review.
            3. If you have additional questions or need further information, please
               contact Aggie Worth, VISN 19 QMO at (303) 639-6984.




VA OIG Office of Healthcare Inspections                                                         15
                   CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       January 23, 2014

          From:        Director, VA Salt Lake City Health Care System (660/00)

       Subject:        CBOC and PCC Reviews of the VA Salt Lake City Health
                       Care System, Salt Lake City, UT

             To:       Director, Rocky Mountain Network (10N19)



           1. Thank you for the opportunity to submit responses to the proposed
              recommendations for the VA Salt Lake City Health Care System,
              Salt Lake City, Utah.

           2. I have reviewed and concur with the findings and recommendations
              in the draft report of the Office of the Inspector General conducted
              the week of November 18, 2013.

           3. Corrective action plans have been established, with some being
              already implemented, and target completion dates have been set
              for the remaining items as detailed in the attached report.

           4. If you have additional questions or need further information, please
              contact Nena Saunders, Associate Director, Quality & Safety, 801-
              582-1565 x4608.




           STEVEN W. YOUNG, FACHE
           DIRECTOR




VA OIG Office of Healthcare Inspections                                                         16
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

Recommendation 1. We recommended that the main entrance door access is ADA
accessible at the Roosevelt CBOC.

Concur

Target date for completion: July 1, 2014

Facility response: The Roosevelt Clinic is a contracted facility and the contract states
this clinic will meet all federal regulations. The contractor will be directed to modify the
main entrance in compliance with the ADA.

Recommendation 2. We recommended that gowned women veterans have access to
gender-specific restrooms without entering public areas at the Roosevelt CBOC.

Concur

Target date for completion: Completed

Facility response: It is the standard operating procedure that female veterans at the
Roosevelt Clinic are invited to use the restroom prior to donning a gown for
examination. In the event a gowned female would need the restroom, an alternate
restroom in the laboratory has been identified and marked for patient use. The path to
this restroom is not through public areas.

Recommendation 3. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: March 1, 2014

Facility response: Reminders are available and satisfy the requirements. All clinic staff
have been reminded to complete the diagnosis assessments for patients with a positive
alcohol screen. A daily computerized report of alcohol screens that are due will be
pulled by a point of contact at each clinic. The individual will make face-to-face contact
with the provider to review the scheduled patients and the screening requirement. This
will serve as a redundant reminder to complete the alcohol screening.




VA OIG Office of Healthcare Inspections                                                        17
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


Recommendation 4. We recommended that CBOC/PCC staff provide education and
counseling for patients with positive alcohol screen and drinking alcohol above NIAAA
limits.

Concur

Target date for completion: March 1, 2014

Facility response: A reminder is on each patient record and all providers have been
reminded of this responsibility. As described in recommendation 3, a clinic point of
contact will review daily alcohol screening reminders and meet face-to-face with
providers to review the redundant reminder list.

Recommendation 5. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: April 1, 2014

Facility response: All providers in clinics have been reminded of this requirement and
there will be a redundant reminder system placed (as described in Recommendation 3)
of the requirement of documentation of the offer for further treatment to patients
diagnosed with alcohol dependence. Compliance will be monitored monthly by the
point of contact and feedback given to the supervisors for appropriate action.

Recommendation 6. We recommended that CBOC/PCC RN Care Managers receive
MI training within 12 months of appointment to PACT.

Concur

Target date for completion: April 1, 2014

Facility response: A certified trainer from another facility is providing MI (Motivational
Interviewing) training to Care Managers who have not yet completed it on January 28,
2014. The facility is hiring an individual who is competent to provide this training for the
future. Nursing has implemented a procedure which insures all newly hired care
managers receive this training within 12 months of PACT appointment. The education
department will track this training and report to the Quality Manager for reporting to the
Executive Board.

Recommendation 7.         We recommended that CBOC/PCC staff document that
medication reconciliation was completed at each episode of care where the newly
prescribed fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: April 1, 2014


VA OIG Office of Healthcare Inspections                                                        18
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT


Facility response: Medication reconciliation for all medications including
Fluroquinolones has been embedded into the provider template to serve as a reminder
to complete reconciliation. Patient Safety will conduct a review of 30 clinic records per
month for one year to track and trend compliance with medication reconciliation.




VA OIG Office of Healthcare Inspections                                                        19
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Simonette Reyes, RN, Team Leader
Contributors 	          Daisy Arugay, MT
                        Paula Chapman, CTRS
                        Yoonhee Kim, PharmD
                        Kathleen Shimoda, RN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        20
                  CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Salt Lake City Health Care System (660/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Orrin Hatch, Mike Lee
U.S. House of Representatives: Rob Bishop, Jason Chaffetz, Jim Matheson,
 Chris Stewart


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        21
                      CBOC and PCC Reviews at VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                          Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
